fHmteti States Court of Appeals
Jfor t\)t CtgFjtlj Circuit

No. 19-2520

Veronica Delph
Plaintiff - Appellant
v.
University of Arkansas for Medical Sciences; Melvin Kirkwood
Defendants - Appellees

Appeal from United States District Court
for the Eastern District of Arkansas - Little Rock

Submitted: June 17, 2020
Filed: June 22, 2020
[Unpublished]

Before ERICKSON, WOLLMAN, and STRAS, Circuit Judges.

PER CURIAM.
Veronica Delph appeals the district court’s1 adverse grant of summary
judgment in this employment discrimination action. Having carefully reviewed the
‘The Honorable D.P. Marshall Jr., Chief Judge, United States District Court for
the Eastern District of Arkansas.

Appellate Case: 19-2520

Page: 1

Date Filed: 06/22/2020 Entry ID: 4925712

record and the parties ’ arguments on appeal, we find no basis for reversal. See Banks
v. John Deere & Co., 829 F.3d 661, 665 (8th Cir. 2016) (standard of review).
Accordingly, we affirm. See 8th Cir. R. 47B.

-2-

Appellate Case: 19-2520

Page: 2

Date Filed: 06/22/2020 Entry ID: 4925712

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-2520
Veronica Delph
Plaintiff - Appellant
v.
University of Arkansas for Medical Sciences; Melvin Kirkwood
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Arkansas - Little Rock
(4:17-cv-00542-DPM)
JUDGMENT
Before ERICKSON, WOLLMAN, and STRAS, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
June 22, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-2520

Page: 1

Date Filed: 06/22/2020 Entry ID: 4925713

Case4:l7-cv-00542-DPM Document50 Filed07/10/19 Page lot3

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
VERONICA DELPH
v.

PLAINTIFF
No. 4:17-cv-542-DPM

MELVIN KIRKWOOD,
Assistant Manager, UAMS

DEFENDANT
ORDER

Veronica Delph worked as a cashier in the UAMS cafeteria for
nearly two years before she was fired. Delph7s dispute is with the
University of Arkansas system, by way of an official capacity claim
against Melvin Kirkwood, her UAMS supervisor.

Kirkwood says

Delph was fired for attendance problems. Delph says she was fired
because of her race and because she filed an EEOC charge alleging
discrimination. Kirkwood moves for summary judgment on Delph's
two remaining Title VII claims “race discrimination and retaliation.
The Court considers the facts, where genuinely disputed, in the light
most favorable to Delph. Woods v. DaimlerChrysler Corporation, 409 F.3d
984, 990 (8th Cir. 2005). Neither of her claims presents a jury question
because she has not met Kirkwood's proof with contrary proof that
would support a verdict for her. Conseco Life Insurance Co. v. Williams,
620 F.3d 902,909 (8th Cir. 2010).

Case 4:17-cv-00542-DPM Document 50 Filed 07/10/19 Page 2 of 3

There's no direct evidence of race discrimination, so the familiar
McDonnell Douglas burden-shifting framework applies.

Gibson v.

American Greetings Corporation, 670 F.3d 844,853-54 (8th Cir. 2012). The
Court assumes Delph has made a prima facie case. Kirkwood has
articulated a legitimate, nondiscriminatory reason for firing her:
Delph's violation of UAMS's attendance policy by being absent without
excuse, or late, too many times in a twelve-month period. Ns 41-3 at 3.
And Delph hasn't shown that this reason was a pretext for
discrimination. Schaffhauser v. United Parcel Service, Inc., 794 F.3d 899,
904 (8th Cir. 2015). She says that Kirkwood disciplined and treated her
more harshly because of her race, Ns 49 at 4, but she hasn't shown that
Kirkwood treated similarly situated white employees differently. Lake
v. Yellow Transportation, Inc., 596 F.3d 871,874-75 (8th Cir. 2010). Delph
also says that Kirkwood failed to follow policies when disciplining her,
Ns 49 at 6. But there's no proof that he "was more likely motivated by
race than by [Delph's attendance problems]." Schaffhauser, 794 F.3d at
904.
Delph's retaliation claim fails, too. Delph engaged in protected
conduct—filing

an

EEOC

charge—and

suffered

an

adverse

employment action. No evidence connects the two, though. Bunch v.
University of Arkansas Board of Trustees, 863 F.3d 1062, 1069 (8th Cir.
-2-

Case 4:17-cv-00542-DPM Document 50 Filed 07/10/19 Page 3 of 3

2017). A reasonable juror could not conclude that, but for Delph's
EEOC charge, she would not have lost her job.

Kirkwood's motion for summary judgment, Ns 41, is granted.
Delph's motion to dismiss and for deposit, Ns 49, is denied. Delph's
Title VII race discrimination and retaliation claims against Kirkwood
will be dismissed with prejudice.
So Ordered.
D.P. Marshall Jr
United States District Judge
/o

-3-

aoii

Case 4:l7-cv-00542-DPM Document 51 Filed 07/10/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
VERONICA DELPH
v.

PLAINTIFF
No. 4:17-cv-542-DPM

UNIVERSITY OF ARKANSAS FOR
MEDICAL SCIENCES and MELVIN
KIRKWOOD, Assistant Manager, UAMS

DEFENDANT

JUDGMENT
1. Delph's Title VII race discrimination and retaliation claims
against Kirkwood are dismissed with prejudice.
2. Delph's other claims against Kirkwood are dismissed without
prejudice.
3. Delph's claims against U AMS are dismissed without prejudice.

D.P. Marshall Jr
United States District Judge
/o %jiy A o /?

Additional material
from this filing is
i

available in the
Clerk's Office.

